No.

IN THE
SUPREME COURT OF THE UNITED STATES

CESAR GOMEZ

— PETITIONER

(Your Name)
VS.
Bobby Lumpkin

— RESPONDENT(S)

PROOF OF SERVICE
I Cesar Gomez
January 29

__________ , do swear or declare that on this date,
, 2021 , as required by Supreme Court Rule 29 I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Inmate confined in an institution and not represented by counsel,
you need file only the original of the motion for leave to proceed
in forma pauperis, affidavit or declaration when needed in support of
the motion of the motion for Idave to proceed in forma pauperis, the
petition for a writ of ceriorari,and proof of service.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

January

,20.

21
f

C&$0\V Tgov^k,?
(Signature)

